June 13, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        North Carolina Incorrectly Claimed Enhanced Federal Reimbursement for Some
                Medicaid Services That Were Not Family Planning (A-04-10-01089)


Attached, for your information, is an advance copy of our final report on family planning
reimbursement to North Carolina’s Division of Medicaid Assistance (State agency). We will
issue this report to the State agency within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Lori S.
Pilcher, Regional Inspector General for Audit Services, Region IV, at (404) 562-7795 or through
email at Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-10-01089.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
June 15, 2012

Report Number: A-04-10-01089

Craigan L. Gray, M.D., M.B.A., J.D.
Director
Division of Medical Assistance
2501 Mail Service Center
Raleigh, NC 27699-2501

Dear Dr. Gray:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled North Carolina Incorrectly Claimed Enhanced Federal
Reimbursement for Some Medicaid Services That Were Not Family Planning. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Truman Mayfield, Audit Manager, at (850) 942-8900, extension 22, or through email at
Truman.Mayfield@oig.hhs.gov. Please refer to report number A-04-10-01089 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Craigan L. Gray, M.D., M.B.A., J.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




NORTH CAROLINA INCORRECTLY
CLAIMED ENHANCED FEDERAL
 REIMBURSEMENT FOR SOME
  MEDICAID SERVICES THAT
 WERE NOT FAMILY PLANNING




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-04-10-01089
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In North Carolina, the Division of Medical
Assistance (State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as the Federal share, is determined by the Federal medical assistance percentage (FMAP).
The State agency’s FMAP ranged from 63.49 percent to 64.52 percent for claims paid from
October 1, 2004, through September 30, 2007.

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies.

Pursuant to section 1903(a)(5) of the Act and Federal regulations (42 CFR § 433.10(c)(1)), the
amount the Federal Government is authorized to reimburse the State for expenditures in family
planning services is calculated at an FMAP of 90 percent (enhanced rate). North Carolina’s
Administrative Code (10A NCAC § 13J.1402(a)(2)(C)) requires that providers adequately
document services.

From October 1, 2004, through September 30, 2007, the Federal Government reimbursed the
State agency at the enhanced rate $52,305,271 (Federal share) for Medicaid family planning
services for pharmacy, sterilization, and clinic and practitioner claims.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid family planning
reimbursement in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicaid family planning reimbursement in accordance
with Federal and State requirements. Of 104 pharmacy claims in our stratified random sample,
75 claims totaling $10,116 (Federal share) met requirements and 8 claims totaling $229 (Federal
share) were beyond the North Carolina Administrative Code’s 5-year records retention period.
However, the remaining 21 claims totaling $4,672 (Federal share) did not meet requirements,
resulting in an overpayment of $4,315 (Federal share). Based on our sample results, we
estimated that the State agency improperly claimed $1,383,713 (Federal share) in Medicaid
reimbursement for pharmacy claims from October 1, 2004, through September 30, 2007.

                                                i
Of 126 sterilization and clinic and practitioner claims that we reviewed in our judgmental
sample, we found that 73 of the sterilization claims and all 50 of the clinic and practitioner
claims qualified for reimbursement at the enhanced rate. However, three sterilization claims did
not qualify for reimbursement at the enhanced rate because the claims were not supported by
consent forms that met Federal requirements. As a result, the State agency improperly claimed
$3,665 (Federal share) in Federal Medicaid funds for sterilization claims.

The State agency made these improper claims because it did not have adequate controls to ensure
that it claimed only Medicaid family planning services at the enhanced rate.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,383,713 to the Federal Government for non-family-planning pharmacy claims
       that were reimbursed at the enhanced rate,

   •   refund $3,665 to the Federal Government for non-family-planning sterilization claims
       that were reimbursed at the enhanced rate,

   •   improve controls to ensure that the State agency claims the enhanced rate only for
       contraceptive drugs that physicians prescribe for family planning purposes,

   •   reemphasize to providers that only services clearly provided for family planning
       purposes should be billed as family planning, and

   •   improve controls to ensure sterilization consent forms are completed in accordance with
       Federal regulations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally did not concur with four of
our five recommendations. The State agency concurred with our second recommendation to
refund $3,665 to the Federal Government to the extent that the State agency may have claimed
enhanced Federal financial participation (FFP) for non-family planning sterilization claims.

In response to our first recommendation to return FFP for family planning pharmacy claims that
neither the pharmacy nor the prescriber could produce supporting documentation for, the State
agency did not agree that it should refund the majority of the estimated pharmacy claims to the
Federal Government. (We had recommended that the State agency return to the Federal
Government the estimated $2,467,222 in pharmacy claims because the pharmaceuticals on 29 of
the 104 sampled claims may have been prescribed for purposes other than family planning.) The
State agency noted that some of the claims selected for review were beyond North Carolina’s
5-year record retention period. In addition, the State agency maintained that “all
pharmaceuticals in the contraceptive therapeutic class should be eligible for the enhanced family
planning matching rate.” Further, the State agency stated that the only way to ensure that

                                                ii
pharmaceuticals in the contraceptive therapeutic class are prescribed only for family planning
purposes would require implementing a methodology that is inconsistent with current medical
practice and that would place an undue, disproportionate burden on prescribers of contraceptive
drugs and pharmacies alike. For the same reasons, the State generally disagreed with our third
and fourth recommendations.

The State provided a comment on our fifth recommendation, but it did not relate to the actual
recommendation.

The State agency also stated that we were inconsistent in our interpretation of Federal
requirements for claiming enhanced FFP for family planning services and supplies and that our
findings were therefore not consistent with other issued Office of Inspector General (OIG)
reports. The State agency’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we modified our first recommendation by
removing eight claims that were beyond the North Carolina Administrative Code’s 5-year record
retention period and adjusting our estimated overpayments for pharmacy claims accordingly.
Nothing in the State agency’s comments caused us to change our other findings or
recommendations. We correctly applied Federal requirements to each of the reviewed claims.

Furthermore, the State agency’s statement that our interpretation of Federal requirements during
this audit is inconsistent with that of OIG audits of other States is inaccurate. OIG audits vary in
objective, scope, and methodology. Therefore, OIG applies only those elements specific to the
circumstances of the State it is auditing.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION …..................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program .................................................................................................1
              State of North Carolina Medicaid Program ..........................................................1
              Medicaid Coverage of North Carolina Family Planning Services........................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope ....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................4

          FEDERAL AND STATE REQUIREMENTS..................................................................4
               Family Planning ....................................................................................................4
               Adequate Documentation......................................................................................4

          PHARMACY CLAIMS ....................................................................................................5

          STERILIZATION CLAIMS.............................................................................................6

          INADEQUATE CONTROLS ..........................................................................................6

          UNALLOWABLE AMOUNT ........................................................................................6

          RECOMMENDATIONS ..................................................................................................6

          STATE AGENCY COMMENTS .....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. In addition, Federal regulations (42 CFR § 441.253) require
States to maintain documentation indicating that all Medicaid sterilization patients (1) were at
least 21 years old at the time of the procedure; (2) were not mentally incompetent; and
(3) voluntarily gave informed consent at least 30 days, but no more than 180 days, before the
date of sterilization.

State of North Carolina Medicaid Program

In North Carolina, the Division of Medical Assistance (State agency) is responsible for
administering the Medicaid program. The State agency contracts with HP Enterprise Services
(formerly Electronic Data Systems) to maintain its Medicaid Management Information System, a
computerized payment and information reporting system that processes and pays Medicaid
claims.

North Carolina’s Administrative Code (10A NCAC § 13J.1402(a)(2)(C)) complements 42 CFR
§ 433.32 by requiring that providers adequately document services. Specifically, the
beneficiary’s service record must contain a record of all services provided, including dates and
times of the service(s), with entries dated and signed by the individual providing the service.

Medicaid Coverage of North Carolina Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered sexually active) who
are eligible under the State plan and who desire such services and supplies.

Pursuant to section 1903(a)(5) of the Act and Federal regulations (42 CFR § 433.10(c)(1)), the
amount the Federal Government is authorized to reimburse the State for expenditures in family
planning services is calculated at a Federal medical assistance percentage (FMAP) of 90 percent
(enhanced rate).



                                                1
The State agency’s FMAP ranged from 63.49 percent to 64.52 percent (standard rate) for claims
paid from October 1, 2004, through September 30, 2007.

According to section 4270 of the CMS State Medicaid Manual (the manual), family planning
services are those that prevent or delay pregnancy or otherwise control family size. That
provision of the manual generally permits the enhanced rate for the following family planning
services and items: counseling services and patient education, examination and treatment by
medical professionals according to each State’s requirements, devices to prevent conception, and
infertility services (including sterilization reversals). The manual provides that only items and
procedures clearly furnished or provided for family planning purposes may be claimed at the
enhanced rate.

From October 1, 2004, through September 30, 2007, the Federal Government reimbursed the
State agency at the enhanced rate for 847,663 claims totaling $52,305,271 (Federal share) for
Medicaid family planning services for pharmacy, sterilization, and clinic and practitioner claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid family planning
reimbursement in accordance with Federal and State requirements.

Scope

Our audit covered certain Medicaid family planning claims for which the Federal Government
reimbursed the State agency at the enhanced rate for the period October 1, 2004, through
September 30, 2007. We did not review the overall internal control structure of the State agency
or the Medicaid program. We limited our review to internal controls directly related to our
objective. 1 We performed fieldwork at the State agency in Raleigh, North Carolina, from
November 2010 through May 2011.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and the manual;

    •   interviewed State agency officials to understand the State’s policies, procedures,
        guidance, and methodology for claiming Medicaid reimbursement for family planning
        services;



1
 We are reviewing family planning claims reimbursed under the State agency’s Medicaid waiver program in an
ongoing audit.

                                                      2
    •    obtained claim data from the State agency for family planning services consisting of
         847,663 pharmacy, sterilization, and clinic and practitioner claims totaling $52,305,271
         (Federal share) with dates of service from October 1, 2004, through September 30, 2007;

    •    selected a stratified random sample of 104 pharmacy claims ($15,018 Federal share) from
         542,721 family planning pharmacy claims and:

             o contacted providers to obtain medical record information for each sampled claim,

             o contacted pharmacies that filled the prescriptions for sampled pharmacy claims in
               which the prescribing physician was not known,

             o reviewed the written physician notes in the corresponding medical records to
               determine whether the drugs were prescribed for family planning purposes, and

             o obtained an independent medical review of all medical records for which we
               determined the drugs may not have been prescribed for family planning purposes;

    •    selected judgmental samples of 30 beneficiaries of sterilization services and 30
         beneficiaries of clinic and practitioner services from 304,942 family planning sterilization
         and clinic and practitioner claims and:

             o requested and reviewed the medical records for 76 sterilization claims ($145,535
               Federal share) for the 30 sampled beneficiaries 2 to verify that all documentation
               was completed in accordance with 42 CFR §§ 441.258(a) and 441.258(b) and

             o requested and reviewed the medical records for 50 clinic and practitioner claims
               ($58,372 Federal share) for the 30 sampled beneficiaries to verify that all
               documentation was completed in accordance with 42 CFR §§ 433.32 and
               441.253;

    •    followed up with providers to obtain additional information when supporting
         documentation was inadequate or missing; and

    •    calculated the improper payment amount for each error identified.

For our stratified random sample of pharmacy claims, we estimated the total overpayment in the
sample frame. (See Appendix A for our sample design and methodology and Appendix B for
our sample results and estimates.) We did not estimate the total overpayment in the population
we reviewed for the 126 claims associated with the 60 judgmentally selected beneficiaries of
sterilization and clinic and practitioner services.



2
 A single beneficiary sterilization often resulted in multiple claims (e.g., preliminary visits and postoperative
followup).

                                                           3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicaid family planning reimbursement in accordance
with Federal and State requirements. Of 104 pharmacy claims in our stratified random sample,
75 claims totaling $10,116 (Federal share) met requirements and 8 claims totaling $229 (Federal
share) were beyond the North Carolina Administrative Code’s 5-year records retention period.
However, the remaining 21 claims totaling $4,672 (Federal share) did not meet requirements,
resulting in an overpayment of $4,315 (Federal share). Based on our sample results, we
estimated that the State agency improperly claimed $1,383,713 (Federal share) in Medicaid
reimbursement for pharmacy claims from October 1, 2004, through September 30, 2007.

Of 126 sterilization and clinic and practitioner claims that we reviewed in our judgmental
sample, we found that 73 of the sterilization claims and all 50 of the clinic and practitioner
claims qualified for reimbursement at the enhanced rate. However, three sterilization claims did
not. As a result, the State agency improperly claimed $3,665 (Federal share) in Federal
Medicaid funds for sterilization claims.

The State agency made these improper claims because it did not have adequate controls to ensure
that it claimed only Medicaid family planning services at the enhanced rate.

FEDERAL AND STATE REQUIREMENTS

Family Planning

Section 4270 of the manual generally permits an enhanced rate of Federal reimbursement for
medically approved methods, procedures, pharmaceutical supplies, and devices to prevent
conception. Pursuant to section 4270(B)(2) of the manual, “[o]nly items and procedures clearly
provided or performed for family planning purposes may be matched at the 90 percent rate.”

Adequate Documentation

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. The beneficiary’s service record must contain a record of all
services provided, including dates and times of the service, with entries dated and signed by the
individual providing the service (10A North Carolina Administrative Code § 13J.1402(a)(2)(C)).
Therefore, for a claim to be valid for Medicaid reimbursement, it must be adequately documented.

Federal regulations (42 CFR § 441.253) require States to maintain documentation indicating that
all Medicaid sterilization patients (1) were at least 21 years old at the time of the procedure;

                                                4
(2) were not mentally incompetent; and (3) voluntarily gave informed consent at least 30 days,
but no more than 180 days, before the date of sterilization. In addition, § 441.256(a) states that
Federal Medicaid reimbursement “… is not available in expenditures for any sterilization or
hysterectomy unless the Medicaid agency, before making payment, obtained documentation
showing that the requirements of this subpart were met.” Federal regulations (42 CFR
§ 441.258(a)) require a sterilization consent form to be the same as the Appendix to subpart F of
part 441 or another form approved by the Secretary of the U.S. Department of Health and Human
Services (HHS). Pursuant to 42 CFR § 441.258(b), the form must include signatures of the
patient, the physician performing the procedure, and the person securing the consent form.

Section 4270(B)(1) of the manual states that the cost of a sterilization is reimbursable at the
enhanced rate if a properly completed sterilization consent form is submitted in accordance with
the requirements of 42 CFR part 441, subpart F, Appendix.

PHARMACY CLAIMS

The State agency did not always properly claim Federal reimbursement at the enhanced rate for
pharmacy claims of contraceptive drugs. Of 104 pharmacy claims in our stratified random
sample, 75 claims totaling $10,116 (Federal share) qualified for reimbursement at the enhanced
rate, and 8 claims totaling $229 (Federal share) were beyond the North Carolina Administrative
Code’s 5-year records retention period. However, of the other 21 pharmacy claims, 13 claims
totaling $502 (Federal share) were for drugs prescribed for purposes other than family planning,
resulting in an overpayment of $145 (Federal share). The remaining eight claims totaling $4,170
(Federal share) did not have adequate documentation, resulting in an overpayment.

For 13 sampled claims, independent medical reviewers determined that doctors prescribed the
drugs for other than family planning purposes, such as hormone treatment, acne, excessive
bleeding, and weight control. Although doctors may prescribe these drugs for family planning
purposes, the medical records for these claims indicated that doctors had prescribed them for
other purposes.

Eight sampled claims were not adequately documented to be eligible for Federal reimbursement
at the enhanced rate. For six of these eight claims, doctors were unable to identify the patient or
provide medical records supporting the pharmacy claims. For the remaining two of the eight
claims, we were unable to locate the prescribing physician using the information provided by the
State agency, even after multiple attempts.

For the 13 claims, which were for drugs that were not clearly prescribed for family planning
purposes, we questioned the difference between the enhanced rate and the State agency’s
standard rate. For the eight claims with inadequate or no documentation, we questioned the
entire amount claimed.




                                                 5
See Appendix A for our sampling methodology for pharmacy claims and Appendix B for our
sample results and estimates.

STERILIZATION CLAIMS

The State agency did not always properly claim Federal reimbursement at the enhanced rate for
sterilization claims. Of the 76 sterilization claims that we reviewed, 73 claims totaling $141,870
(Federal share) qualified for reimbursement at the enhanced rate. However, three claims totaling
$3,665 (Federal share) did not have adequate documentation. Specifically:

   •   two claim-consent forms did not satisfy the Federal requirement (42 CFR § 441.258(a))
       that the consent form be the same as the Appendix to subpart F of part 441 or another
       form approved by the Secretary of HHS and

   •   one claim was missing a consent form entirely.

INADEQUATE CONTROLS

The State agency made improper claims, resulting in overpayments, because it did not have
adequate controls to ensure that it claimed only allowable family planning services. Specifically,
the State agency did not have sufficient policies and procedures to:

   •   ensure that pharmacy claims for contraceptive drugs were prescribed for family planning
       purposes and

   •   ensure that it obtained consent forms that met all of the mandatory requirements, such as
       having the proper consent form required by 42 CFR part 441, subpart F.

UNALLOWABLE AMOUNT

Based on our sample of pharmacy claims, we estimated that the State agency improperly claimed
$1,383,713 (Federal share) in Federal Medicaid reimbursement for contraceptive drugs. In
addition, the State agency improperly claimed $3,665 (Federal share) in Federal Medicaid
reimbursement for sterilization claims.

We did not estimate the total amount of overpayments for the population of all sterilization
claims.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,383,713 to the Federal Government for non-family-planning pharmacy claims
       that were reimbursed at the enhanced rate,



                                                6
   •   refund $3,665 to the Federal Government for non-family-planning sterilization claims
       that were reimbursed at the enhanced rate,

   •   improve controls to ensure that the State agency claims the enhanced rate only for
       contraceptive drugs that physicians prescribe for family planning purposes,

   •   reemphasize to providers that only services clearly provided for family planning purposes
       should be billed as family planning, and

   •   improve controls to ensure sterilization consent forms are completed in accordance with
       Federal regulations.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally did not concur with four of
our five recommendations. The State agency concurred with our second recommendation to
refund $3,665 to the Federal Government to the extent that the State agency may have claimed
enhanced Federal financial participation (FFP) for non-family planning sterilization claims.

In response to our first recommendation to return FFP for family planning pharmacy claims that
neither the pharmacy nor the prescriber could produce supporting documentation for, the State
agency did not agree that it should refund the majority of the estimated pharmacy claims to the
Federal Government. (We had recommended that the State agency return to the Federal
Government the estimated $2,467,222 in pharmacy claims because the pharmaceuticals on 29 of
the 104 sampled claims may have been prescribed for purposes other than family planning.) The
State agency noted that some of the claims selected for review were beyond North Carolina’s
5-year record retention period. In addition, the State agency maintained that “all
pharmaceuticals in the contraceptive therapeutic class should be eligible for the enhanced family
planning matching rate.” Further, the State agency stated that the only way to ensure that
pharmaceuticals in the contraceptive therapeutic class are prescribed only for family planning
purposes would require implementing a methodology that is inconsistent with current medical
practice and that would place an undue, disproportionate burden on prescribers of contraceptive
drugs and pharmacies alike. For the same reasons, the State generally disagreed with our third
and fourth recommendations.

The State provided a comment on our fifth recommendation, but it did not relate to the actual
recommendation.

The State agency also stated that we were inconsistent in our interpretation of Federal
requirements for claiming enhanced FFP for family planning services and supplies and that our
findings were therefore not consistent with other issued Office of Inspector General (OIG)
reports. The State agency’s comments appear in their entirety as Appendix C.




                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE
After reviewing the State agency’s comments, we modified our first recommendation by
removing eight claims that were beyond the North Carolina Administrative Code’s 5-year record
retention period and adjusting our estimated overpayments for pharmacy claims accordingly.
Nothing in the State agency’s comments caused us to change our other findings or
recommendations. We correctly applied Federal requirements to each of the reviewed claims.
Furthermore, the State agency’s statement that our interpretation of Federal requirements during
this audit is inconsistent with that of OIG audits of other States is inaccurate. OIG audits vary in
objective, scope, and methodology. Therefore, OIG applies only those elements specific to the
circumstances of the State it is auditing.




                                                 8
APPENDIXES
                                                                                        Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was all Medicaid prescribed drug line items billed as regular State plan family
planning services by North Carolina Division of Medical Assistance at a Federal medical
assistance percentage of 90 percent during the period October 1, 2004, through September 30,
2007.

SAMPLING FRAME

We obtained from the State agency 586,631 line items totaling $21,895,893 (Federal share) from
the Medicaid Management Information System paid claims files. From this population, we
eliminated all negative (credit) adjustment line items and all corresponding positive (debit) line
items for the same person, date of service, and dollar amount. The resulting sampling frame was
542,721 unique prescription drug line items totaling $21,898,629 (Federal share). Each line item
is a unique claim.

SAMPLE UNIT

The sample unit was a claim.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into two strata:
(1) Medicaid prescribed drug claims with a Federal paid amount ranging from $.01 to $449.99
and (2) Medicaid prescribed drug claims with a Federal paid amount ranging from $450 to
$6,450.

       Stratum             Range               No. of Claims            Federal Share

           1           $.01 to $449.99             542,717               $21,887,837
           2            450 to 6,450                     4                     10,792
                            Total                  542,721               $21,898,629

SAMPLE SIZE

We selected a sample of 104 claims consisting of 100 claims from stratum 1 and all 4 claims
from stratum 2.
                                                                                   Page 2 of 2


SOURCE OF THE RANDOM NUMBERS

A Region IV statistical specialist generated the random numbers using the Office of Inspector
General, Office of Audit Services (OIG/OAS) statistical software, RAT-STATS 2010, Version 1,
Random Number Generator.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the prescription drug claims from 1 to 542,717 in stratum 1. After
generating 100 random numbers for stratum 1, we selected the corresponding line items. We
selected all four line items in stratum 2.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable payments in the
sample frame.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                             Sample Results: Federal Share Amounts

                                                                   Number of
          Frame       Value of      Sample       Value of
Stratum                                                           Claims With    Overpayments
           Size        Frame         Size        Sample
                                                                     Errors
   1      542,717     $21,887,837     100         $4,226                20            $443

   2              4       10,792          4        10,791                1           3,872

 Total    542,721     $21,898,629     104         $15,017               21          $4,315



                                    Estimates of Overpayments
                      (Limits Calculated for a 90-Percent Confidence Interval)


                                                  Federal Share
                            Point estimate         $2,403,982
                            Lower limit             1,383,713

                            Upper limit             3,424,251
                                   APPENDIX C: STATE AGENCY COMMENTS                                            Page 1 of 5




                            North Carolina Department of Health and Human Services 

                                   2001 Mail Service Center· Raleigh, North Carolina 27699-2001 

                                               Tel 919-855-4800 • Fax 919-715-4645 

Beverly Eaves Perdue. Governor 	                                                                      Albert A. Delia, Acting Secretary



                                                    March 7. 2012



      Lori S. Pilcher 

      Regional Inspector General for Audit Services 

      US DHHS Office ofinspector General 

      61 Forsyth Street SW 

      Suite 3T41 

      Atlanta, GA 30303 


      Re: North Carolina Incorrectly Claimed Enhanced Federal Reimbursement for Some Medicaid Services
          That Were Not Family Planning
          eIN A-04-10-01089

      Dear Ms. Pilcher:

      The North Carolina Department of Health and Human Services (NCDHHS) received your January 5, 2012
      letter and draft report entitled "North Carolina Incorrectly Claimed Enhanced Federal Reimbursementfor
      Some Medicaid Services That Were Not Family Planning" [Audit A-04-1 0-0 1089].


      OIG Recommendation 1: 

      The recommendations were for the State agency to: 


      • 	 Refund $2,467,333 to the Federal Government for non-family planning pharmacy claims that were
          reimb ursed at the enhanced rate,

      • 	 Refund $3,665 to the Federal Government for non-family planning sterilization claims that were 

          reimbursed at the enhanced rate, 


      • 	 Improve controls to ensure that the State agency claims the enhanced rate only for contraceptive drugs that
          physicians prescribe for family planning purposes,

      • 	 Reemphasize to providers that only services clearly provided for family planning purposes should be billed
          as family planning, and

      • 	 Improve controls to ensure that sterilization consent forms are completed in accordance with Federal
          regulations.



                                   Location: 101 Blair Drive' Adams Building' Raleigh, N.C. 27603 

                                            An Equal Opportunity I Affirmative Action Employer 

                                                                                                  Page 2 of 5
Ms. Lori S. Pilcher
Audit A-04-10-0 1089
March 7, 2012
Page 2 of5


DHHS Response - Recommendation 1:

NC DlllIS partially concurs:

To the extent that the Department may have claimed FFP for family planning pharmacy claims for which
neither the pharmacy nor the prescriber can produce supporting documentation that the pharmaceutical was
prescribed at all, and the provider has not declared bankruptcy or gone out of business, the Department
concurs that such FFP should be returned.

The Department respectfully disagrees with the Office of the Inspector General's (OIG's) recommendation that
the majority ofthe estimated $2,467,222 be returned to the federal government because the pharmaceuticals on
29 of the 104 sampled claims may have been prescribed for purposes other than family planning. There are
three primary reasons for the disagreement.

        (1) North Carolina State law lOA NCAC 22F.0107 which went into effect on April I, 1988, requires
            that Medicaid billing records be retained for only five years. (The law can be viewed at
            http://~rnle£.state.nc.us/ncac/title%2010JI'Y~­
            %20health%20and%20human%20services/chapter"/o2022%20­
            %20medical%20assistance%20eligibilitv/subchapter%20t71 Oa%20ncac%2022t%20.0 I 07.pdf
            http://www.ncdhhs.gov/dmalplanlsp.pdf.) In some sampled claims, the five year period had already
            expired before a records request could be made. Nevertheless, these claims were considered
            unallowable in the audit due to "no documentation". The Department asserts that the provider is
            not obligated to retain records for a period longer than contractually required.

            The Department also asserts that the only way to ensure that claims for pharmaceuticals in the
            contraceptive therapeutic classification are only claimed at the enhanced match rate when
            prescribed specifically for the purposes of family planning would be to require pharmacies to
            include a diagnosis code on the claim. Pharmacies would be unable to do this unless the prescriber
            included the diagnosis code on the prescription. Requiring the diagnosis code on the prescription
            is not consistent with current medical practice and places an undue, disproportionate burden on
            prescribers of contraception and pharmacies alike and unfairly segregates a certain class of
            medication to be processed differently.

        (2) The Department wishes to address the issue of the stigma that some women associate with
            discussing and requesting contraception. It is not uncommon for individuals to withhold sensitive
            and deeply personal information from health care providers, especially regarding sexual activity.
            Some women may feel more comfortable requesting contraceptives to manage dysmenorrhea or
            menorrhagia rather than for birth control. Further, at the client's request, providers may document a
            non-family planning purpose as the primary reason for the prescription in order to allay fears a
            client may have regarding privacy. Also, for all of the 29 claims in question, the patient was a
            female of child bearing age. No clinical records were observed that the patients in question were
            unable to conceive. So while a client may request contraception for another reason, it still could
            prevent a pregnancy despite the client's medical records not accurately reflecting the client's sexual
            activity and/or reasons for taking a contraceptive drug. Finally, Section 4270 of the State Medicaid
            Manual allows States to establish a way to identifY family planning services and apply for the
            enhanced match. Therefore, the Department maintains that all pharmaceuticals in the contraceptive
            therapeutic class should be eligible for the enhanced family planning matching rate.

        (3) 	Lastly, the Department believes that OIG is not consistent across state audits in its interpretation
             and application of the guidance in the Centers for Medicare and Medicaid Services (CMS)
                                                                                                Page 3 of 5
Ms. Lori S. Pilcher
Audit A-04-IO-O 1089
March 7, 2012
Page 3 of5


            Financial Management Review Guide #20 regarding states' claiming of enhanced federal
            financial participation (FFP)for family planning services and supplies. Nor does the Department
            believe that the OIG is consistent across state audits in its interpretation and application of
            Section 4270 of the State Medicaid Manual or the cited 1992 Departmental Appeals Board
            administrative law ruling.

            During the course of the audit, the Department explained to the OIG that North Carolina's
            enhanced claiming for family planning pharmacy claims was governed by therapeutic
            classification code. It appears that many other states use this methodology for claiming the
            enhanced family planning match on pharmacy claims. In other audits conducted by the OIG of
            states' enhanced family planning pharmacy claiming, the Department found that in only one of
            these audits were the specific prescription diagnoses questioned. In the majority of these audits,
            the OIG found no issue with states claiming enhanced FFP on all claims for prescriptions with
            drugs that had been appropriately assigned to the contraceptive therapeutic classification code.
            Specifically, in one audit report released on February 28, 2011 (A-09-09-00049), the OIG
            specifically states, "We reviewed $19 million (Federal share)forfamily planning services and
            supplies that did not contain approved diagnosis codes or approved therapeutic classifICation
            codes." [Emphasis added). All ofthe 104 sampled claims in North Carolina's audit contained
            the appropriate classification codes by using the 'family planning indicator' that First Data Bank
            (national drug file compendia) sends to us, and this indicator results in identification of
            contraceptive therapeutic classification codes. Thus, the Department again disagrees with the
            OIG's recommendation to return the enhanced FFP for more than a quarter of its family
            planning pharmacy claims.

            North Carolina has been using an automated approach through their MMIS system to restrict
            claims for enhanced FFP on family planning to only those claims with a pharmaceutical
            classified as family planning by a nationally recognized organization with expertise in the
            classification of pharmaceuticals.

            An apparently very similar process was proposed by the State of Kansas as quoted in the OIG
            report A-07-09-04146 where the Kansas responded to the OIG recommendations stating:

             "As a result, the policy changes implemented on June 18, 2010 ... add new system logic to
            remove the provider from the process ofidentifoingfamily planning services eligible for
            enhanced FFP. The identification offamily planning services takes place in the coding and
            editing ofthe MMIS claims process, which has the advantage ofpreventing claims ofenhanced
            FFP for services the provider could have misidentified as being related to family planning. "

            The OIG responded as follows to the above comments:

            "The corrective actions that the State agency described in its comments, should, when fully
            implemented, adequately address our findings." [Emphasis added].

            The North Carolina MMIS has had system edits in place for over a decade in this regard. All of
            the 104 sampled claims in North Carolina's audit contained the appropriate therapeutic
            classification codes and pharmaceuticals that were appropriately assigned to those therapeutic
            classification codes. As such, the Department respectfully disagrees with OIG's recommendation
            to return the enhanced FFP for a quarter of its family planning pharmacy claims, especially
            since the OIG has already informed at least one State agency that these controls are considered
            adequate by the OIG (Report A-07-09-04146, August 18, 2010 - "The corrective actions that
                                                                                              Page 4 of 5
Ms. Lori S. Pilcher
Audit A-04-IO-OI089
March 7, 2012
Page 4 of5


             the State agency [Kansas Health Policy Authority] described in its comments should, when folly
             implemented, adequately address our findings ... ". .



OIG Recommendation #2

We recommend that the State Agency:

Refund $3,665 to the Federal Government for non-family planning sterilization claims that were reimbursed at
the enhanced rate.

DHHS Response - Recommendation 2:

NC DHHS partially concurs.

To the extent that the Department may have claimed enhanced FFP for non-family planning sterilization
claims, the Department concurs that such FFP should be returned. The Department is still in the process of
researching the necessary medical records from the providers.

OIG Recommendation #3:

We recommend that the State Agency:

      Strengthen internal controls to ensure that prescribed drug costs submitted for Federal
      reimbursement appropriately identify claims that are eligible for reimbursement at the 90-percent
      rate.

DHHS Response - Recommendation 3:

NC DHHS partially concurs.

For patients unable to conceive (e.g. male or too old), the Department concurs that enhanced match is not
appropriate. However, the Department's procedures are very similar to those of other States where the OIG has
allowed such procedures (e.g. A-07-09-04146).

The Department believes that its internal controls for appropriate claiming of enhanced match for family
planning pharmaceuticals are adequate and exceed that of other states. As noted above, 100 percent of sampled
claims included the appropriate therapeutic classification codes and pharmaceuticals that were appropriately
assigned to those therapeutic classification codes as opposed to several other states. As discussed in its
response to Recommendation # I, the Department asserts that the only way to ensure that claims for
pharmaceuticals in the contraceptive therapeutic classification are only claimed at the enhanced match rate
when prescribed specifically for the purposes of family planning would be to require pharmacies to include a
diagnosis code on the claim. Pharmacies would not be able to do this unless the prescriber included the
diagnosis code on the prescription. Requiring the diagnosis code on the prescription is not consistent with
current medical practice and places an undue disproportionate burden on prescribers of contraception and
pharmacies alike.

OIG RecommendatioD #4

Reemphasize to providers that only services clearly provided for family planning purposes should be billed as
family planning.
                                                                                               Page 5 of 5
Ms. Lori S. Pilcher 

Audit A-04-1O-0 1089 

March 7, 2012 

Page 5 of5


DHHS Response - Recommendotion 4

Medicaid providers in North Carolina bill services using standard medical codes. Pharmaceuticals are billed
based upon National Drug Code (NDC). Neither of these codes provide for the explicit description of the
services provided. As previously stated, the Department claims the enhanced rate only for pharmaceuticals
classified with the appropriate therapeutic classification codes. The Department asserts that the only way to
ensure that claims for pharmaceuticals in the contraceptive therapeutic classification are only claimed at the
enhanced match rate when prescribed specifically for the purposes of family planning would be to require
pharmacies to include a diagnosis code on the claim. Pharmacies would not be able to do this unless the
prescriber included the diagnosis code on the prescription. Requiring the diagnosis code on the prescription is
not consistent with current medical practice and places an undue disproportionate burden on prescribers of
contraception and pharmacies alike.

OIG Recommendation #5

Improve controls to ensure that the State agency claims the enhanced rate only for contraceptive drugs that
physicians prescribe for family planning purposes,

NC DHHS Response - Recommendation 5

As previously stated, the Department claims the enhanced rate only for pharmaceuticals classified with the
appropriate therapeutic classification codes. The Department asserts that the only way to ensure that claims for
pharmaceuticals in the contraceptive therapeutic classification are only claimed at the enhanced match rate
when prescribed specifically for the purposes of family planning would be to require pharmacies to include a
diagnosis code on the claim. Pharmacies would not be able to do this unless the prescriber included the
diagnosis code on the prescription. Requiring the diagnosis code on the prescription is not consistent with
current medical practice and places an undue disproportionate burden on prescribers of contraception and
pharmacies alike.

We appreciate the assistance and professionalism provided by your staff in the performance of this audit. If
you need any additional information, please contact Monica Hughes at (919) 855-3720.




~/.~
Albert A. Delia 	                    '/

cc: 	 Dan Stewart, CPA 

      Craigan Gray, MD, MBA, JD 

      Tara Larson 

      Eddie Berryman, CPA 

      Laketha M. Miller, CPA 

      Monica Hughes 

